OFFICE OF INSPECTOR GENERAL
            Audit Report

Fiscal Year 2012 Financial Statement Audit
         Letter to Management

            Report No. 13-03
            January 28, 2013




RAILROAD RETIREMENT BOARD
                   UNITED STATES RAILROAD RETIREMENT BOARD

                                OFFICE OF INSPECTOR GENERAL



                                                                            January 28, 2013


Michael S. Schwartz
Chairman
U.S. Railroad Retirement Board


The purpose of this letter is to transmit a memorandum on internal control
communicating certain matters concerning internal control that came to our
attention during our recent audit of the Railroad Retirement Board’s (RRB)
financial statements.

We have audited the RRB’s general purpose financial statements and issued our
report thereon dated November 6, 2012, except for matters relating to the fair
value of the net assets of the National Railroad Retirement Investment Trust as
of September 30, 2012, as to which the date was November 15, 2012. We
performed our audit in accordance with U.S. generally accepted government
auditing standards and Office of Management and Budget (OMB) audit guidance
as applicable to the scope of our audit. 1 We have not considered internal control
since we obtained sufficient appropriate audit evidence to support the audit
opinion on November 6, 2012; internal control was not among those matters to
which we gave consideration between November 6th and November 15th.

During our audit, we noted certain matters involving the RRB’s internal control
structure and its operation that, individually, did not rise to the level of a
significant deficiency, the details of which are presented in the attached
memorandum. That memorandum also presents the full text of those matters
previously reported as material weaknesses in conjunction with our opinion on
the financial statements. However, neither this letter, nor the attached
memorandum, modifies our report dual dated as of November 6, 2012, and
November 15, 2012, referred to above.

Our observations concerning internal control were presented to responsible
agency management who were offered the opportunity to review and comment
on the draft memorandum. Their responses are also attached.




1
 “Report on the Railroad Retirement Board’s Fiscal Year 2012 Financial Statements,” OIG Report
No. 13-01, November 15, 2012.



844 N RUSH STREET CHICAGO IL 60611-2092                                       Printed on recycled paper
In planning and performing this audit, we considered internal control in order to
determine our auditing procedures for the purpose of issuing our report on the
RRB’s financial statements and not to provide assurance on internal control. The
maintenance of adequate internal control designed to fulfill the RRB’s control
objectives is the responsibility of management. Because of inherent limitations in
any system of internal control, errors or irregularities may nevertheless occur and
not be detected. Also, controls found to be functioning at a point in time may
later be found deficient because of the performance of those responsible for
applying them. There can be no assurance that controls currently in existence
will prove to be adequate in the future as changes take place in the organization.

Our work was not conducted for the primary purpose of making detailed
recommendations about the RRB’s system of internal control. Had we done so,
other matters might have come to our attention that we would have reported to
you.

We wish to express our appreciation for the many courtesies and cooperation
extended to us during the audit.


                                                Very truly yours,

                                                Originalsigned
                                                Original signedby
                                                               by….
                                                                  …


                                                Martin J. Dickman
                                                Inspector General



Attachments

cc: Walter A. Barrows, Labor Member
    Jerome F. Kever, Management Member
    George V. Govan, Chief Financial Officer
    Karl T. Blank, General Counsel
    John M. Walter, Chief of Accounting, Budget, and Financial Management
    Martha P. Rico, Secretary to the Board
                                   Letter to Management
                                Memorandum on Internal Control

                                    Table of Contents

MATERIAL WEAKNESSES
 Information Technology Security - Risk Management Framework ....................... 1

 Information Technology Security - Configuration Management............................ 1

 Budgetary Reporting ............................................................................................. 1



OTHER MATTERS INVOLVING INTERNAL CONTROL
 Inaccurate Reported Amount for Distributed Offsetting Receipts ......................... 2

 Delay in Establishing Budgetary Allotments ......................................................... 3

    Recommendations ............................................................................................ 4

    Management’s Response ................................................................................. 4

 Management Schedule Conflicted with Legal Representation Letter ................... 4

    Recommendation.............................................................................................. 5

    Management’s Response ................................................................................. 5

 Incomplete Legal Letter File.................................................................................. 5

    Recommendation.............................................................................................. 6

    Management’s Response ................................................................................. 6



APPENDICES
 Appendix I - Status of Prior and Current Year Recommendations ....................... 7

 Appendix II - Management’s Response - Bureau of Fiscal Operations ................ 8

 Appendix III - Management’s Response - Office of General Counsel ................ 10
                                Letter to Management
                             Memorandum on Internal Control

MATERIAL WEAKNESSES

In conjunction with the Office of Inspector General’s (OIG) opinion on the
Railroad Retirement Board’s (RRB) financial statements for the fiscal years (FY)
ended September 30, 2012 and 2011, we reported the following material
weaknesses.

Information Technology Security - Risk Management Framework

During FY 2012, the OIG evaluated the RRB’s information security pursuant to
the provisions of the Federal Information Security Management Act (FISMA).
OIG auditors found that weaknesses regarding the review of contractor
deliverables associated with the risk management framework continue to be
found. Although agency managers are working to strengthen controls,
management action had either not been completed as of the end of the current
reporting period, or had not been in place long enough to permit evaluation.

Information Technology Security - Configuration Management 2

During FY 2012, the OIG evaluated the RRB’s information security pursuant to
the provisions of FISMA. OIG auditors found that weaknesses associated with
the configuration management of some agency systems continue to be found.
Although agency managers are working to remediate these weaknesses,
management action had not been completed as of the end of the current period.

Budgetary Reporting

In FY 2011, we reported a material weakness for budgetary reporting and
recommended that the Bureau of Fiscal Operations (BFO) provide training for the
preparation of the statement and implement a review process to ensure the
accuracy of calculations, consistency in recorded amounts and effectiveness of
controls. In an effort to address this material weakness, BFO staff conducted
budgetary training for the accountants in March 2012. Although BFO has made
an effort toward attempting to address this weakness, the training was not
sufficient to prevent the financial reporting errors found in the June 30, 2012
Statement of Budgetary Resources. In addition, corrective action remains to be
taken regarding an improved review process to ensure the accuracy of
calculations, consistency in recorded amounts and effectiveness of controls.




2
 This material weakness was previously referred to as Information Technology Security Application
and Services.

                                                1
                               Letter to Management
                            Memorandum on Internal Control

OTHER MATTERS INVOLVING INTERNAL CONTROL

During our audit, we also noted certain other matters involving the RRB’s internal
control structure and its operation. Although these matters do not rise to the
level of a material weakness or significant deficiency, either individually or in the
aggregate, they represent areas in which control weaknesses increase the risk of
error or mishandling.

The details of our observations and recommendations for corrective action follow.
The full text of management’s responses is presented as Appendix II and
Appendix III in this report.

Inaccurate Reported Amount for Distributed Offsetting Receipts

BFO’s internal controls over budgetary reporting are still insufficient. During our
audit, we found that the June 30, 2011 comparative amount provided for the
June 30, 2012 Statement of Budgetary Resources (SBR) for the line caption
“Distributed Offsetting Receipts” was not accurately reported in the financial
statement provided to the Office of Management and Budget (OMB).

Control activities help to ensure that all transactions are completely and
accurately recorded. OMB Circular A-136 requires the RRB to submit quarterly
comparative financial statements, which includes the SBR.

BFO’s review process for the June 30, 2012 comparative statements was not
effective. During FY 2011, BFO corrected the amount recorded as Distributed
Offsetting Receipts reported on the June 30, 2011 SBR. However, the corrected
amount was not recorded in the June 30, 2012 comparative SBR.

The amount recorded as Distributed Offsetting Receipts as of June 30, 2011 in
the June 30, 2012 comparative SBR was understated by $170 million, which
caused the agency’s outlays to be overstated by $170 million. This impacted the
accuracy of the RRB’s reported budgetary amounts provided to OMB for the
comparative SBR reported as of June 30, 2012.

Recommendations for corrective action for this audit finding are related to those
currently pending for the material weakness for budgetary reporting made in our
FY 2011 Letter to Management audit report. 3 As a result, no additional
recommendations will be made.




3
 “Fiscal Year 2011 Financial Statement Audit Letter to Management,” OIG Report No. 12-04,
January 31, 2012.

                                               2
                            Letter to Management
                         Memorandum on Internal Control

Delay in Establishing Budgetary Allotments

Internal controls are insufficient for the timely establishment of budgetary
allotments in the RRB’s Federal Financial System (FFS) and verification of
existing allotments prior to voucher preparation. BFO’s accounting section
prepared a voucher to record receipt of a $137 million funds transfer from the
Department of Treasury for quarterly income taxes and the voucher failed FFS
edits because the budgetary allotment had not been prepared in FFS by BFO’s
budgetary section. BFO’s accounting section did not initiate communication with
the budgetary section regarding this issue until seven days later.

Treasury issues a warrant transferring quarterly income tax receipts to the
Federal Payments to Railroad Retirement Account. A budgetary allotment for the
funds must be established in FFS by BFO’s budgetary section before the funds
transfer can be recorded. BFO’s accounting section prepares a standard
voucher to record the funds transfer, invests the funds on the day of receipt, and
then prepares another voucher to record the investment of the funds.

An apportionment is a plan approved by OMB to spend resources provided by
one of the annual appropriations acts, a supplemental appropriations act, a
continuing resolution, or a permanent law (mandatory appropriations). The
apportionment specifies and limits the obligations that may be incurred and
expenditures that can be made (or makes other limitations, as appropriate) for
specified time periods, programs, activities, projects, objects or any combination
thereof. It may be further subdivided into allotments, suballotments, and
allocations.

One of the RRB’s strategic goals is to serve as responsible stewards for their
customers’ trust funds and agency resources. As such, they are committed to
fulfilling their fiduciary responsibilities to the railroad community by running the
agency in an efficient and effective manner.

BFO’s budgetary section does not have sufficient controls to ensure the timely
establishment of budgetary allotments in FFS. In addition, BFO’s accounting
section does not have sufficient controls to ensure that the budgetary allotments
have been established in FFS prior to preparing a voucher to transfer the funds.
Untimely communication between the accounting and budgetary sections
contributed to the delayed corrective action.

Due to the delay in establishing the allotment, BFO was not able to invest the
funds until 10 days later, which caused the RRB to lose approximately $112,600
in interest.




                                           3
                           Letter to Management
                        Memorandum on Internal Control

Recommendations

We recommend that the Bureau of Fiscal Operations:

   1. improve the internal controls over the timely establishment of the
      budgetary allotments in FFS related to quarterly income tax receipts;

   2. improve internal controls to verify that budgetary allotments have been
      created in FFS prior to recording funds transferred for quarterly income tax
      receipts; and

   3. establish internal controls for timely follow-up of intra-bureau
      communication for funds transferred for quarterly income tax receipts.

Management’s Response

The Bureau of Fiscal Operations agreed to implement the recommendations.


Management Schedule Conflicted with Legal Representation Letter

Internal controls are not sufficient to ensure that the management schedule,
which shows how the information in the legal letter is considered in the financial
statements, accurately supports the legal representation letter prepared by the
General Counsel. We found that the amounts recorded by BFO in the
management schedule did not accurately reflect the amounts provided in the
legal representation letter.

OMB Circular No. A-136, Financial Reporting Requirements, requires agencies
to submit interim and final legal representation letters. Management schedules
are required to accompany the legal representations showing how the
information contained in the legal representations was considered in preparing
the financial statements. The schedules should be consistent with information
presented in the legal representation letters and notes to the financial
statements.

The review and approval process for the management schedule was not
effective. The management schedule contained inaccurate amounts of
approximately $25,191. Weaknesses in the preparation and review process, if
not corrected, could lead to future errors.




                                         4
                            Letter to Management
                         Memorandum on Internal Control


Recommendation

We recommend that the Bureau of Fiscal Operations:

   4. strengthen the controls over the preparation, review and approval of the
      management schedule to ensure that information provided is consistent
      with information presented in the applicable legal representation letter.

Management’s Response

The Bureau of Fiscal Operations agreed to implement the recommendation.


Incomplete Legal Letter File

We found that internal controls over the legal letter file maintained by the Office
of the General Counsel was not sufficient to ensure that it contained
documentation to support changes in the status of the legal cases. The Office of
the General Counsel maintains a legal letter file called the “Board Financial
Statements File” to support information provided in the quarterly reports that they
prepare and provide to BFO regarding litigation, claims and assessments and
legal representation letters for the financial statement audit. We found that the
“Board Financial Statements File” did not sufficiently support the change in
status, the likelihood of loss, and the amount of loss for the cases.

The legal letter file should contain documentation of contacts with the
Department of Justice or Internal Revenue Service to update the status of
Railroad Retirement Tax Act litigation. The file should also contain monthly
updates on the status of litigation from various attorneys which are compiled into
a monthly litigation report.

The lack of sufficient documentation was caused by inadequate internal controls
over the legal letter file.

BFO records contingent liability amounts based on the legal representation letter
prepared by the Office of the General Counsel. When documentation maintained
to support the legal representation file is inadequate, it is difficult to assess the
accuracy and reasonableness of the data provided in the legal representation
letter.




                                         5
                           Letter to Management
                        Memorandum on Internal Control

Recommendation

We recommend that the Office of General Counsel:

   5. strengthen its internal controls to ensure that information relevant to cases
      discussed in quarterly reports of litigation, claims and assessments or
      legal representation letters is maintained in the “Board Financial
      Statements File.”

Management’s Response

The Office of General Counsel concurred with this recommendation.




                                        6
                                                                  Appendix I

            Status of Prior and Current Year Recommendations

We have reviewed the implementation of recommendations resulting from prior
audits of the RRB’s financial statements. The table below presents a summary
of the status of recommendations that were pending when we issued our “Letter
to Management” dated January 31, 2012, in connection to our audit of the RRB’s
FY 2011 financial statements. The additional recommendations resulting from
our audit of the agency’s FY 2012 financial statements are also included.

                                      Report and            Current Status
                                      Recommendation                      In
Bureau                                Number           Implemented     Progress
BUREAU OF FISCAL OPERATIONS
                                      08-01   #9                          X
                                      10-03   #2            X
                                      11-03   #1            X
                                      12-04   #1                          X
                                      12-04   #2                          X
                                      12-04   #6                          X
                                      13-03   #1                          X
                                      13-03   #2                          X
                                      13-03   #3                          X
                                      13-03   #4                          X

BUREAU OF ACTUARY
                                      09-02   #9                          X
                                      09-02   #10                         X
                                      12-04   #3                          X
                                      12-04   #4                          X
                                      12-04   #5                          X

OFFICE OF PROGRAMS
                                      09-02 #12                           X
                                      09-02 #13                           X

OFFICE OF GENERAL COUNSEL
                                      13-03 #5                           X
           TOTALS                                           2            16




                                      7
                                                                                              Appendix I I

                   UNITED STA T ES GO V E RNMEN T                                                               FORM ' ·1151 11 -821
                                                                                                RAIL ROAD RETIR EMENT B OARD
                  MEMORANDUM


                                                                                                January 23 2013
                                                                                                            1




TO         :    Diana Kruel
                Assistant Inspector General for Audit


           ..
                                                               Dlgitaty IIQMd by GEORGE GCNAA
                                                               ON c-US , o-U S CiOYW!WrMint..

FROM            George V. Govan              GEORGE GOVAN ::==~,_
                                                               O.t.Z3oU. 18'20tJ.~.100
                                                                1.1,.f0()()10012t9

                Chief Financial Officer                        052
                                                               QME201l. 012l07-26:47-0G'OO'




SUBJECT:        Draft Letter to Management- FY 2012 Financial Statement Audit


This is in response to your request for comments on the above draft audit report.
Following are my comments on recommendations addressed to the Bureau of Fiscal
Operations.

We recommend that the Bureau of Fiscal Operations:

     1. improve the internal controls over the timely establishment of the
        budgetary allotments in FFS related to quarterly income tax receipts.

        We will improve the internal controls over the timely establishment of the
        budgetary allotments in FFS related to quarterly income tax receipts.

        Target Completion Date: May 31 2013  I




     2. improve the internal controls to verify that budgetary allotments have been
        created in FFS prior to recording funds transferred for quarterly income tax
        receipts.

       We will improve the internal controls to ve rify that budgetary allotments have
       been created in FFS prior to reco rding funds transfe rred for quarterly income tax
       recei pts.

       Target Completion Date: May 31 2013   I




                                                    8
                                                                       Ap pendix II
                                           - 2-


   3. establish internal controls for timely follow-up of intra-bureau
      communication for funds transferred for quarterly income tax receipts.

      We will establish internal controls for timely follow-up of intra-bureau
      communication for funds transferred for quarterly income tax receipts .

      Target Completion Date: May 31, 2013


   4. strengthen the controls over the preparation, review and approval of
      management schedules to ensure that information provided is consistent
      with information presented in the applicable legal representation letter.

      We will strengthen these controls.

      Target Completion Date: May 31, 2013


If there is any additional information you need, please advise me.


cc: John Walter, Chief of ABFM
    Elizabeth Stu bits, Lead Budget Analyst
    Rich Lannin, Senior Accountant
    Edie Natividad, Accountant
    Debra Stringfellow-Wheat, Supervisory Aud itor




                                            9
                                                               Appendix I II




                 UNITED STATES GOVERNMENT                                 FORM G-115f (1-92)
                 MEMORANDUM                                    RAILROAD RETIREMENT BOARD




                                                              January 24,2013
 TO              DianaKruel
                 Assistant Inspector General for Audit

 FROM        :   Karl T. Blank  'J ij_ ::.;;:--~
                 General Cou~


 SUBJECT :       Draft Letter to Management
                 FY 2012 Financial Statement Audit


This is in reply to your memorandum of January 9, 2013 , transmitting a draft letter
to management on internal control.

With respect to the file maintained by the Office of General Counsel to document
potential liabilities to the Railroad Retirement Account arising from litigation
concerning either the Board or the Internal Revenue Service in the administration
of the Railroad Retirement Tax Act, recommendation number 5 states:

      We recommend that the Office of General Counsel strengthen its internal
      controls to ensure that information relevant to cases discussed in quarterly
      reports of litigation, claims and assessments or legal representation letters is
      maintained in the "Board Financial Statements" file.


This is to advise that I concur with the recommendation.




cc:   Chief Financial Officer



                                        10
